IN THE SUPREME COURT OF THE UNITED STATES
DAVID P. MORAN — Petitioner
v
STATE OF FLORIDA - Respondent
PROOF OF SERVICE
I,

Twlv/

David

Patrick

Moran,
20 la

do

swear

or

declare

that

on

this

date,

., as required by Supreme Court Rule 29(1) have

served the enclosed PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first class postage prepaid.
The names and addresses of those served are as followsOFFICE OF THE ATTORNEY GENERAL. 444 Seabreeze Boulevard, 5th Floor,
Daytona Beach, Florida 32118
OFFICE OF THE STATE ATTORNEY. Ninth Judicial Circuit, 415 North Orange
Avenue, Suite 300, Orlando, Florida'32801Executed on this Zhcj

dav of • vTyly

, 2020.
i

: »

David Moran DC#X97428
Pro Se Litigant

